                                                                Issue Date
                                                                   November 5, 2007
                                                                Audit Report Number
                                                                   2008-PH-1001




TO:        William D. Tamburrino, Director, Baltimore Public Housing Program Hub,
            3BPH



FROM:      John P. Buck, Regional Inspector General for Audit, Philadelphia Regional
            Office, 3AGA

SUBJECT:   The District of Columbia Housing Authority, Washington, DC, Did Not Ensure
            That Its Program Units Met Housing Quality Standards under Its
            Moving to Work Program

                                  HIGHLIGHTS

 What We Audited and Why

           We audited the District of Columbia Housing Authority’s (Authority)
           administration of its leased housing under its Moving to Work Demonstration
           (Moving to Work) program based on our analysis of various risk factors relating
           to the housing authorities under the jurisdiction of the U.S. Department of
           Housing and Urban Development’s (HUD) Baltimore field office. This is the
           second of three audit reports to be issued on the Authority’s program. The audit
           objective addressed in this report was to determine whether the Authority ensured
           its program units met housing quality standards.

 What We Found

           The Authority failed to ensure that its program units met housing quality
           standards. We inspected 70 housing units and found that 67 units did not meet
           HUD’s housing quality standards. Moreover, 48 of the 67 units had exigent
           health and safety violations that the Authority’s inspectors neglected to report
           during their last inspection. The Authority spent $192,821 in program and
           administrative funds for these 48 units. We estimated that over the next year if
           the Authority does not implement adequate procedures and controls to ensure that
           its program units meet housing quality standards, HUD will pay more than $21.7
           million in housing assistance on units with material housing quality standards
           violations.

What We Recommend

           We recommend that the director of HUD’s Baltimore Public Housing Program
           Hub require the Authority to ensure that housing units inspected during the audit
           are repaired to meet HUD’s housing quality standards, reimburse its program
           from nonfederal funds for the improper use of $192,821 in program funds for
           units that materially failed to meet HUD’s housing quality standards, and
           implement adequate procedures and controls to ensure that in the future program
           units meet housing quality standards to prevent an estimated $21.7 million from
           being spent annually on units with material housing quality standards violations.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’s Response

           We provided our discussion draft audit report to the Authority’s executive
           director and HUD officials on October 1, 2007. We discussed the report with the
           Authority and HUD officials throughout the audit and an exit conference on
           October 11, 2007. The Authority provided written comments to our draft report
           on October 17, 2007.

           The complete text of the Authority’s response, along with our evaluation of that
           response, can be found in appendix B of this report.




                                            2
                            TABLE OF CONTENTS

Background and Objectives                                                4

Results of Audit
      Finding: Controls over Housing Quality Standards Were Inadequate   5

Scope and Methodology                                                    13

Internal Controls                                                        15

Appendixes

   A. Schedule of Questioned Costs and Funds to Be Put to Better Use     17
   B. Auditee Comments and OIG’s Evaluation                              18
   C. Criteria                                                           29




                                             3
                     BACKGROUND AND OBJECTIVES

The District of Columbia Housing Authority (Authority) operates the city’s public housing. The
Authority was, by court order, placed in receivership on May 19, 1995. Receivership terminated
on September 30, 2000. The Authority is governed by a nine-member board of commissioners
consisting of four commissioners appointed by the mayor with the advice and consent of the city
council, three commissioners elected by residents of the Authority’s housing properties, one
commissioner representing labor and designated by the central labor council, and the deputy
mayor for planning and economic development serving ex officio. The board of commissioners
grants authority to the executive director to develop policies, plans, and goals and to direct the
day-to-day operation of the Authority.

In 1996, Congress authorized the Moving to Work Demonstration (Moving to Work) program as
a U.S. Department of Housing and Urban Development (HUD) demonstration program. The
Authority was accepted into the program on July 25, 2003, when HUD’s Assistant Secretary for
Public and Indian Housing signed the Authority’s Moving to Work agreement. The signed
agreement requires the Authority to abide by the statutory requirements in Section 8 of the
United States Housing Act of 1937 until such time as the Authority proposes and HUD approves
an alternative leased housing program with quantifiable benchmarks. At the time of this audit,
the Authority had not proposed, and HUD had not approved, an alternative leased housing
program with quantifiable benchmarks.

Under the Section 8 Housing Choice Voucher program, the Authority was authorized to provide
leased housing assistance payments to more than 9,500 eligible households. HUD authorized the
Authority the following financial assistance for housing choice vouchers:

          Authority fiscal year        Annual budget authority              Disbursed
                 2005                      $112,811,038                    $119,631,086
                 2006                      $115,848,213                    $115,185,750
                Totals                     $228,659,251                    $234,816,836

Our audit objective was to determine whether the Authority operated its Moving to Work
program adequately by detemining whether its program units met housing quality standards in
accordance with HUD requirements.




                                                4
                                RESULTS OF AUDIT

Finding: Controls over Housing Quality Standards Were Inadequate
The Authority did not adequately enforce HUD’s housing quality standards. Of 70 program
units selected for inspection, 67 failed to meet and 48 materially failed to meet housing quality
standards. The Authority’s inspectors neglected to report 662 violations which existed at the
units when they did their inspections. The Authority overlooked these violations because it did
not implement adequate procedures and controls to ensure that its program units met HUD’s
housing quality standards. As a result, the Authority spent $192,821 in program and
administrative funds for 48 units that materially failed to meet HUD’s housing quality standards.
We estimate that over the next year, HUD will pay more than $21.7 million in housing assistance
for units with material violations of housing quality standards.



 Section 8 Tenant-Based
 Housing Units Not in
 Compliance with HUD’s
 Housing Quality Standards


              We statistically selected 70 units from unit inspections passed by the Authority’s
              inspectors during the period July 17, 2006, to January 17, 2007. The 70 units
              were selected to determine whether the Authority ensured that the units in its
              program met housing quality standards. We inspected the selected units between
              February 27 and March 22, 2007.

              Of the 70 units inspected, 67 (96 percent) had 870 housing quality standards
              violations. Additionally, 48 of the 70 units were considered to be in material
              noncompliance since they had exigent health and safety violations that predated
              the Authority’s last inspection and were not identified by an Authority inspector.
              Four units had violations that were noted on the Authority’s previous inspection
              report, and the Authority later passed the units, but during our inspection, it was
              determined that the violations were never corrected. Of the 67 units that failed,
              there were 662 violations that existed before the Authority’s last inspection report.
              The following table categorizes the 870 housing quality standards violations in
              the 67 units that failed the housing quality standards inspections.




                                                5
                         Category of violations         Number
                                                           of
                                                       violations
                       Heating, ventilation, and air      104
                       conditioning
                       Window                              85
                       Tub, shower, toilet, sink           83
                       Electrical                          82
                       Security – exterior                 75
                       doors/windows
                       Stove/refrigerator/sink             74
                       Stairs, rails, porches              58
                       Site and neighborhood               57
                       conditions
                       Floor                              45
                       Fire exits                         45
                       Roof/gutters                       42
                       Interior doors                     31
                       Other interior hazards             18
                       Exterior surface                   18
                       Ceiling                            15
                       Wall                               14
                       Evidence of infestation            11
                       Foundation                         10
                       Smoke detectors                     3
                                    Total                 870

           We provided our inspection results to the director of HUD’s District of Columbia
           Office of Public Housing and the Authority’s executive director.


Examples of Housing Quality
Standards Violations


           The following are pictures of some of the violations we noted while conducting
           housing quality standards inspections at the Authority’s leased housing units:




                                           6
Inspection #21: The heating
system was corroded,
missing a filter, and had
exposed electrical wiring
next to the gas line and
control source.




Inspection #43: The heating
system’s metal casing was
corroded, and metal was
fatigued (pitted) due to
long-term use.




Inspection #62: The cover
was missing on the metal
security box, the electrical
wiring was exposed, and
circuit breakers were
unsecured. Eleven children
lived in this unit, and the
exposed wiring was found in
a closet of one of the unit’s
bedrooms.




                                7
Inspection #24: The cover
was missing on the metal
security box, and the
electrical wiring was
exposed.




Inspection #10: The handrail
was missing on stairs, and
the safety rail was missing at
an unprotected height.




Inspection #19: The
required handrail was
missing on the stairs.




                                 8
The Authority Failed to
Implement Procedures and
Controls


           Although the Authority’s written procedures and controls required it to ensure its
           program units met housing quality standards it failed to implement these
           procedures. Rather, inspectors missed or overlooked numerous violations of
           housing quality standards because their supervisors did not allow them enough
           time to adequately complete the inspections. Six of the Authority’s nine
           inspectors told us that they had to rush through the inspections in order to
           complete the required number of inspections and return to the office on time.
           The inspectors told us that they were verbally instructed by their supervisors to
           complete between 10 and 13 inspections per day. They explained that if they
           failed to complete their assigned inspections and return on time to the office, they
           faced possible disciplinary actions. As a result, inspectors stated that they rushed
           through inspections, sacrificing the quality of the inspection, to avoid the
           consequences of not meeting these requirements.

The Authority’s Comments on
Our Housing Quality Inspection
Results


           We presented the results of the housing quality standards inspections to the
           Authority’s public housing director and to HUD’s Washington, DC, director of
           public housing on July 17, 2007. The Authority provided a response to the
           finding on July 26, 2007. The Authority has taken action to develop a quality
           assurance housing inspection program that will aggressively examine 25 percent
           of all inspections conducted by members of the Authority’s Housing Choice
           Voucher program division. Also, the Authority has taken steps to notify owners
           of the violations identified during our inspections.

           The Authority hired independent consultants to review the results of our housing
           quality standards inspections. The Authority agreed with 284 and disagreed with
           485 of the violations. The Authority contends that the inappropriate application
           of standards outside the housing quality standards resulted in an inflated number
           of inspections labeled as “failed.” Also, the consultants concluded that it could
           not be determined whether the violations noted in the Office of Inspector
           General’s (OIG) inspections existed at the time of the Authority’s inspections.
           Accordingly, the Authority believed that the amount we cited as funds to be put to
           better use was too high. The following are examples of some of the discrepancies
           with which the Authority disagreed:

               •   Mildew located in bathroom,
               •   Security bars on bedroom windows that cannot be opened from the inside,

                                             9
               •   Double-keyed locks on doors providing egress from the unit, and
               •   Cracks and holes on the walls and ceilings.

Our Response to the Authority


           We have reviewed the Authority’s response and are encouraged by the steps the
           Authority has taken to ensure that units will meet housing quality standards in the
           future. The Authority should receive approval from HUD before implementing
           the new quality assurance housing inspection program. Also, to ensure that
           tenants and landlords of units that failed inspection have been notified and
           violations have been corrected, the Authority needs to provide documentation that
           supports the actions that have been taken.

           Although we are encouraged by the Authority’s response, we do not agree with
           the Authority’s consultants that the violations we identified were not housing
           quality standards violations. All violations were based on housing quality
           standards and were determined to be violations. Housing Choice Voucher
           Program Guidebook, 7420.10G, chapter 10, states that the goal of the Housing
           Choice Voucher program is to provide decent, safe, and sanitary housing at an
           affordable cost to low-income families. Also, the guidebook states that not all
           areas of housing quality standards are exactly defined. While acceptability
           criteria specifically state the minimum standards, inspector judgment or tenant
           preference may need to be considered in determining whether the unit meets
           minimum standards.

           Inspections we conducted did not exceed housing quality standards. We reviewed
           the violations again based on the Authority’s comments, and removed 143
           violations from the report in an effort to be as conservative as possible. The
           removed violations did not change the number of units that were in
           noncompliance but reduced the total violations we reported to 870. Some
           examples of violations that have been removed are

               •   50 violations citing mildew,
               •   22 violations citing cracks and holes in walls and ceilings, and
               •   7 violations citing food preparation areas being too small.

           Examples of violations that the Authority did not believe were housing quality
           standards violations but which remained in the report are

               •   Double-keyed locks on doors providing egress from the unit – A double-
                   keyed dead bolt is a dead bolt lock that requires a key to enter and exit the
                   unit. Double-keyed locks present life threatening issues for the tenant,
                   because they impede egress from the unit. Regulations at 24 CFR [Code
                   of Federal Regulations] 982.404(a)(3) state that if a defect is life
                   threatening the owner must correct the defect. The national fire code, Life


                                            10
                    Safety Code Handbook, ninth edition, 24.2.4.7, states that all locking
                    devices that impede or prohibit egress shall be prohibited.

                •   Security bars on bedroom windows that cannot be opened from the inside
                    - HUD Form 52580-a, Inspection Checklist, section 8.2, Exits, states that
                    “acceptable fire exit” means that the building must have an alternative
                    means of exit that meets local or state regulations in case of fire. The
                    District of Columbia Housing Residential Code, DCMR 12B R-310.1,
                    states, “every sleeping room shall have at least one openable emergency
                    escape and rescue window or exterior door opening for emergency escape
                    and rescue.” Further, the District of Columbia Housing Fire Code, DCMR
                    12H F-1012.2 states, “Bars, grilles or screens placed over emergency
                    escape windows shall be releasable or removable from the inside without
                    the use of a key, tool or force greater than that which is required for
                    normal operation of the window.”

             The scope of our housing quality standards inspections was to determine whether
             the Authority identified all housing quality standards violations when it conducted
             housing quality inspections. Our universe consisted of the latest six months of
             housing quality inspections that the Authority determined contained no violations.
             We determined that six months would be adequate to determine the quality of the
             Authority’s housing quality standards inspections. To determine the quality of
             inspections, we made a professional determination of whether a violation predated
             the last inspection conducted by the Authority. We used our professional
             knowledge, tenant interviews, and the Authority’s latest inspection reports in
             determining whether a housing quality standards violation was in existence before
             the last passed inspection conducted by the Authority or was on the last passed
             inspection conducted by the Authority and was not corrected. We reported to the
             Authority and HUD all housing quality standards violations to ensure that tenants
             were residing in decent, safe, and sanitary housing. Although the Authority
             objected to how we determined some of the conditions we reported, we
             determined that the Authority’s program units, which HUD is funding, were in
             poor condition with an average of 12 violations per unit (70 units inspected with
             870 violations), with some units having more than 40 housing quality standards
             violations. One housing quality standards violation fails a unit.

Conclusion


             The Authority’s tenants were subjected to health- and safety-related violations, and
             the Authority did not properly use its program funds when it failed to ensure that
             units complied with HUD’s housing quality standards. The Authority disbursed
             $178,668 in housing assisting payments to landlords for the 48 units that
             materially failed to meet HUD’s housing quality standards and received $14,153
             in program administrative fees.



                                              11
          If the Authority implements adequate procedures and controls over its unit
          inspections to ensure compliance with HUD’s housing quality standards, we
          estimate that more than $21.7 million in future housing assistance payments will be
          spent on units that are decent, safe, and sanitary.

Recommendations

          We recommend that the director of HUD’s Baltimore Public Housing Program
          Hub require the Authority to

          1A.     Certify, along with the owners of the 67 units cited in this finding, that the
                  applicable housing quality standards violations have been repaired.

          1B.     Reimburse HUD’s program $192,821 from nonfederal funds ($178,668
                  for housing assistance payments and $14,153 in associated administrative
                  fees) for the 48 units that materially failed to meet HUD’s housing quality
                  standards.

          1C.     Implement procedures and controls to ensure program units meet housing
                  quality standards and inspectors are given adequate time to perform
                  inspections, thereby ensuring $21,743,120 in program funds are expended
                  only on units that are decent, safe, and sanitary.




                                             12
                         SCOPE AND METHODOLOGY

To accomplish our objective, we reviewed

   •   Applicable laws, regulations, the Authority’s administrative plan, HUD’s program
       requirements at 24 CFR [Code of Federal Regulations] Part 982, and HUD’s Housing
       Choice Voucher Guidebook, 7420.10G.

   •   The Authority’s accounting records; annual audited financial statements for 2004 and 2005;
       check register; tenant files; computerized databases including housing assistance payments
       and HUD-50058 (Family Report) data; board meeting minutes; organizational chart;
       correspondence; and Moving to Work program documents including the agreement, plans,
       and reports.

   •   HUD’s monitoring reports for the Authority.

We also interviewed the Authority’s employees, HUD staff, and program households.

To achieve our audit objective, we relied in part on computer-processed data in the Authority’s
database. Although we did not perform a detailed assessment of the reliability of the data, we
did perform a minimal level of testing and found the data to be adequate for our purposes.

We statistically selected 70 of the Authority’s program units to inspect using the U.S. Army
Audit Agency’s statistical software from 3,182 unit inspections passed by the Authority’s
inspectors during the period July 17, 2006, to January 17, 2007. The 70 units were selected to
determine whether the Authority’s program units met housing quality standards. The sampling
criteria used a 90 percent confidence level, 50 percent estimated error rate, and precision of plus
or minus 10 percent. Originally 67 units were selected for inspection; however, an additional
three inspections were performed in case any of the original 67 inspections were performed on
units that were not part of the Authority’s Housing Choice Voucher program.

Our sampling results determined that 48 of 70 units (68.57 percent) materially failed to meet
HUD’s housing quality standards. Materially failed units were those with exigent health and
safety violations that predated the Authority’s previous inspections; or were on the last
inspection report, and the violation had not been corrected at the time of our inspection. All
units were ranked, and we used auditor’s judgment to determine the material cutoff line.

Based upon the sample size of 70 from a total population of 3,182, an estimate of 68.57 percent
(48 units) of the population materially failed housing quality standards inspections. The
sampling error is plus or minus 9.03 percent. There is a 90 percent confidence that the frequency
of occurrence of program units’ materially failing housing quality standards inspections lays
between 59.55 and 77.60 percent of the population. This equates to an occurrence of between
1,894 and 2,469 units of the 3,182 units in the population. We are using the most conservative
numbers, which is the lower limit or 1,894 units.



                                                13
We analyzed the applicable Authority databases and estimated that the annual housing assistance
payment per recipient in our sample universe was $11,480. Using the lower limit of the estimate
of the number of units and the estimated annual housing assistance payment, we estimate that the
Authority will spend $21,743,120 (1,894 units times $11,480) annually for units that are in
material noncompliance with HUD’s housing quality standards. This estimate is presented
solely to demonstrate the annual amount of program funds that could be put to better use on
decent, safe, and sanitary housing if the Authority implements our recommendations. While
these benefits would recur indefinitely, we were conservative in our approach and only included
the initial year in our estimate.

We performed our on-site audit work between September 2006 and July 2007 at the Authority’s
office located at 1133 North Capital Street, NE, Washington, DC. The audit covered the period
October 1, 2004, through September 30, 2006, but was expanded when necessary to include
other periods.

We performed our audit in accordance with generally accepted government auditing standards.




                                              14
                             INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.




 Relevant Internal Controls

              We determined the following internal controls were relevant to our objective:

                  •   Program operations – Policies and procedures that management has
                      implemented to reasonably ensure that a program meets its objectives.

                  •   Validity and reliability of data – Policies and procedures that management
                      has implemented to reasonably ensure that valid and reliable data are
                      obtained, maintained, and fairly disclosed in reports.

                  •   Compliance with laws and regulations – Policies and procedures that
                      management has implemented to reasonably ensure that resource use is
                      consistent with laws and regulations.

                  •   Safeguarding resources – Policies and procedures that management has
                      implemented to reasonably ensure that resources are safeguarded against
                      waste, loss, and misuse.

              We assessed the relevant controls identified above.

              A significant weakness exists if internal controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.




                                               15
Significant Weakness

           Based on our audit, we believe the following item is a significant weakness:

               •   The Authority did not implement procedures and controls to ensure
                   compliance with HUD’s regulations regarding unit inspections and ensure
                   that units met minimum housing quality standards (see finding).




                                            16
                                    APPENDIXES

Appendix A

               SCHEDULE OF QUESTIONED COSTS
              AND FUNDS TO BE PUT TO BETTER USE

                    Recommendation                         Funds to be put
                        number             Ineligible 1/    to better use 2/
                            1B              $192,821
                            1C                              $21,743,120


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or federal, state, or local
     policies or regulations.

2/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an OIG recommendation is implemented. This includes
     reductions in outlays, deobligation of funds, withdrawal of interest subsidy costs not
     incurred by implementing recommended improvements, avoidance of unnecessary
     expenditures noted in preaward reviews, and any other savings which are specifically
     identified. In this instance, if the Authority implements our recommendations, it will
     cease to incur program costs for units that are not decent, safe, and sanitary and, instead,
     will expend those funds for units that meet HUD’s standards. Once the Authority
     successfully improves its controls, this will be a recurring benefit. Our estimate reflects
     only the initial year of this benefit.




                                              17
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION

Ref to OIG Evaluation   Auditee Comments




                         18
Comment 1




            19
Comment 2



Comment 3


Comment 3



Comment 4




Comment 4




            20
Comment 5


Comment 6




Comment 6


Comment 7




Comment 7




Comment 8




            21
Comment 8




Comment 9


Comment 9




Comment 10




Comment 10




             22
Comment 11




Comment 2




Comment 12




Comment 13




             23
24
                         OIG Evaluation of Auditee Comments

Comment 1   The Authority’s objections to our audit methodology, process, and protocol are
            without merit as we performed the audit in accordance with generally accepted
            government auditing standards. To obtain an accurate determination of whether
            the Authority properly inspected units, we selected a sample from a six-month
            period or approximately one-third (3,182 passed inspections of 9,575 assisted
            units) of the total tenant units participating in the leased housing program. We
            understand that housing quality standards violations can occur after the last
            annual inspection conducted by the Authority, but federal regulations require that
            all program housing must meet housing quality standards performance
            requirements at commencement of assisted occupancy and throughout the assisted
            tenancy. Therefore, we reported all violations identified at the time of our
            inspection so that the Authority could ensure they were corrected. We used our
            professional knowledge, tenant interviews, and the Authority’s latest inspection
            reports in determining whether a housing quality standards violation existed prior
            to the last passed inspection conducted by the Authority or if it was on the last
            passed inspection conducted by the Authority and was not corrected. We defined
            materiality in the report and used it to quantify deficiencies that we conclusively
            determined to exist at the time of the Authority’s inspection. The form we used to
            perform our inspections accurately and appropriately applied HUD’s housing
            quality standards.

Comment 2   Although the Authority’s paid consultants agreed with some of our conclusions,
            they did in fact disagree with many of the conclusions. While the consultants
            considered some of the violations to be “routine maintenance” they did not
            describe their usage and /or definition of this phrase or why they considered the
            repairs to be routine maintenance. Many needed repairs the consultants classified
            as routine maintenance were in fact violations of housing quality standards. We
            reviewed the consultants’ evaluation in its entirety and we are confident that this
            final audit report accurately and fairly depicts the conditions we found in the
            Authority’s units when we conducted our audit. We further scrutinized and
            reviewed conditions at the units where the consultants questioned our
            interpretation of housing quality standards in an effort to be as fair and
            conservative as possible in our estimates. After further consulting with HUD, we
            eliminated some violations from this final audit report if we determined a more
            lenient interpretation of the housing quality standards could be reasonably
            accepted. We described the consultants’ comments and our evaluation of them in
            the audit report.

Comment 3   We commend the Authority for completing the follow-up actions for the 67 units
            that the audit determined were not in compliance with housing quality standards.

Comment 4   We disagree with many of the conclusions of the consultants the Authority hired
            for the purpose of contesting our audit findings. We are confident that this report
            accurately and fairly depicts the conditions we found in the units when we did our
            inspections. In consultation with our certified HUD inspector, we used our

                                            25
            professional knowledge, tenant interviews, and the Authority’s latest inspection
            reports to determine whether a violation existed prior to the last passed inspection
            conducted by the Authority or was on the last passed inspection conducted by the
            Authority and was not corrected. In the event we could not reasonably make that
            determination, we did not include the violation in our assessment of questioned
            costs and funds to be put to better use.

Comment 5   The Authority incorrectly quotes the letter we sent it in response to concerns
            raised by its outside legal counsel. Our letter to the Authority actually states:
            “Our audit was performed in accordance with generally accepted government
            auditing standards and has been designed to determine whether HUD
            requirements have been followed with respect to housing quality standards as
            stated at 24 CFR 982 and was not intended to follow the Section 8 Management
            Assessment Program process. To obtain an accurate determination of whether the
            inspections of units that passed were appropriately conducted by the Authority,
            we selected a sample from a six-month period or approximately one-third (3,182
            passed inspections of 9,575 assisted units) of the total tenant units participating in
            the leased housing program.”

Comment 6   We agree that the Section 8 Management Assessment program requires the
            Authority’s sample to be no older than three months. Although this is a
            requirement for the Authority’s self assessment, our audit was not intended to
            follow the Authority’s self-assessment process. We performed our audit in
            accordance with generally accepted government auditing standards in much
            greater detail and broader scope than the Authority’s staff does in its self-
            assessment. For example, in conjunction with our inspections we took numerous
            photographs of units, performed tenant interviews, and reviewed the Authority’s
            latest inspection reports to help us to determine whether a housing quality
            standards violation existed prior to the last passed inspection conducted by the
            Authority or was on the last passed inspection conducted by the Authority and
            was not corrected. As indicated by the pictures in the report, some deficiencies
            were easily determined to have existed at the time of the Authority’s inspection as
            they could not have deteriorated to such an extent within six months or less. We
            were very conservative in our determination of pre-existing conditions.

Comment 7   We performed our inspections accurately and appropriately applied HUD’s
            housing quality standards. In no instance did we apply a higher standard than is
            required by HUD’s housing quality standards. For example, we disagree with the
            Authority’s claim that the severely damaged refrigerator seals we found were not
            housing quality standards violations. We disagree because HUD’s Housing
            Choice Voucher Guidebook, 7420.10G, chapter 10.3 states that proper food
            temperatures are difficult to maintain if the refrigerator door seals are removed or
            severely damaged like the ones we found in our inspections. The Authority also
            incorrectly implies that we reported oven doors which were only cosmetically
            damaged as violations. This was not the case as we reported only those
            violations where the equipment was not in proper operating condition. A
            damaged stove door can certainly be more than a cosmetic violation if it exposes

                                             26
              residents to risk of fire and/or severe burns which can become life threatening.
              These violations are considered housing quality standards violations even though
              they are also Uniformed Physical Condition Standard deficiencies.

Comment 8     We appropriately applied HUD’s housing quality standards in the same manner as
              we have done in audits throughout the country. In no instances did we apply a
              higher standard than is required by HUD’s housing quality standards. Our
              inspector has many years of experience conducting numerous housing quality
              inspections across the country. With respect to the Authority’s concerns
              regarding public space, building structure, and building systems, we did not
              exceed the housing quality standards. Housing quality standards require that the
              building the unit is in must be structurally sound, must protect the occupants from
              the environment, and must not present any threat to the health and safety of the
              occupants. Also, the site and neighborhood must be reasonably free from
              disturbing noises and reverberations and other dangers to the health, safety, and
              general welfare of the occupants. We cited two code violations related to
              potential problems exiting the unit during a fire or other emergency that would
              cause life threatening conditions. One violation resulted from a double-keyed
              lock which blocked the fire or other emergency exit through an exterior door.
              The other violation resulted from bars on the first floor windows which could not
              be detached and which blocked an alternate fire or other emergency exit from the
              building.

Comment 9     Housing quality standards regulations at CFR 24.982.401(k) require that a
              building must provide an alternate means of exit in case of fire (such as fire stairs
              or egress through windows). HUD Form 52580-A, Inspection Checklist, section
              8.2, states that “acceptable fire exit” means that the building must have an
              alternative means of exit that meets local or state regulations in case of fire.
              Double-keyed locks are housing quality standards violations because regulations
              at 24 CFR 982.404(a)(3) require that if a defect is life-threatening the owner must
              correct the defect. Double-keyed locks present life-threatening issues for the
              tenant because they impede egress from the unit and building.

Comment 10 We appropriately applied HUD’s housing quality standards in the same manner as
           we have done in audits throughout the country. In no instances did we apply a
           higher standard than is required by HUD’s housing quality standards. The form
           we used to perform our inspections accurately and appropriately applied HUD’s
           housing quality standards.

Comment 11 The section of the inspection form the Authority mentions was not used in
           determining housing quality standards violations. By identifying special
           amenities we were able to evaluate the number of people residing in the unit and
           determine if the tenant may have under-reported income. We use this information
           to evaluate if further review in other areas of our audit could be needed.




                                               27
Comment 12 Both hot water heaters mentioned in the Authority’s response were in very close
           proximity in the same room and both could cause scalding. Thus, both were
           considered housing quality standards violations.

Comment 13 We are encouraged by the Authority's statements that it has planned corrective
           actions to ensure program units meet housing quality standards by initiating
           quality controls and addressing staffing issues.




                                             28
Appendix C
                                         CRITERIA

HUD regulations at 24 CFR [Code of Federal Regulations] 982.152(d) state that HUD may
reduce or offset any administrative fee to a public housing authority, in the amount determined
by HUD, if the authority fails to perform its administrative responsibilities correctly or
adequately under the program, such as not enforcing HUD’s housing quality standards.

HUD regulations at 24 CFR 982.305(a) state that the public housing authority may not give
approval for the family of the assisted tenancy or execute a housing assistance contract until the
authority has determined that the unit has been inspected by the authority and meets HUD’s
housing quality standards.

HUD regulations at 24 CFR 982.401 require that all program housing meet HUD’s housing
quality standards performance requirements, both at commencement of assisted occupancy and
throughout the tenancy.

HUD regulations at 24 CFR 982.404(a) state that the owner must maintain the unit in accordance
with HUD’s housing quality standards. If the owner fails to maintain the dwelling unit in
accordance with HUD’s housing quality standards, the Authority must take prompt and vigorous
action to enforce the owner obligations. The Authority must not make any housing assistance
payments for a dwelling unit that fails to meet the housing quality standards unless the owner
corrects the defect within the period specified by the authority and the authority verifies the
correction.

HUD regulations at 24 CFR 982.405(a) require public housing authorities to perform unit
inspections before the initial move-in and at least annually. The authority must inspect the unit
leased to a family before the term of the lease, at least annually during assisted occupancy, and at
other times as needed to determine whether the unit meets housing quality standards.

The Authority’s Moving to Work program agreement states that during the term of the
agreement, the Authority shall continue to abide by Section 8 of the United States Housing Act
of 1937 until such time as the Authority proposes and HUD approves an alternative leased
housing program with quantifiable benchmarks. The Authority and HUD will work together to
develop more streamlined approaches to demonstrating compliance with the statutory
requirements.




                                                29
